■uu

NO:

2©°845§

IN THE SUPREME COURT OF
THE UNITED STATES

April Ledford - Petitioner
Vs.
The Eastern Band of Cherokee Indians

ON PETITION FOR A WRIT OF CERTIORARI TO
United States Court of Appeals for the Fourth Circuit
PETITION FOR WRIT OF CERTIORARI
April Ledford
Post Office Box 2150
Bryson City, North Carolina 28713

filed
JUN 2 5 2021

Questions Presented for Review
1.
Do 11 men and women have the right to change a
will deemed valid by The Eastern Band of Cherokee
Indians (EBCI) and by the State of North Carolina,
resulting in that man’s widow homeless?
2.
Is the Indian Civil Rights Act of 1968 (ICRA) only
limited to cases involving Habeas Corpus?
3.
Plaintiff-Petitioner exhausted tribal remedies
before seeking a jury trial in Federal Court.
4.

The EBCI violated Petitioner’s due process.
TABLE OF AUTHORITIES CITED

1.

American Indian Civil Rights Act of 1968 (ICRA)

2.

The Due Process Clause of the United States

Constitution.

LIST OF PARTIES
b/All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

IN THE SUPREME COURT OF
THE UNITED STATES
PETITION FOR THE WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of
Certiorari be issued to review the judgment
below.
OPINIONS

For the case from Federal Courts:
1) The opinion of Appellate Court for the Fourth
Circuit appears at Appendix B p. 23 to the
petition and is
[ ] reported at

; or

[x ] has been designated for publication but is not
yet reported; or
[ ] is unpublished

JURISDICTION OPINION
For cases from Federal Courts:
1) The date on which the United States Court of Appeals
decided Petitioner’s case was March 25, 2021.
[x] No petition for rehearing was timely filed in my case.
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully petitions for a Writ of certiorari
before judgment to review a decision of a United States
District Court for the Western District of North Carolina.
OPINION BELOW
The opinion of the United States District Court for the
Western District of North Carolina for which this petition
is filed is reported of Case Number l:20-CV-00005 In
which was filed under 28 USC 1331.
JURISDICTION
The case is docketed in the United States for the Court of
Appeals for the fourth Circuit as Case Number 20-2232.
2

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
1. The Equal Protection Clause of Section 1 of the
Fourteenth Amendment provides that no state shall deny
to any person within its jurisdiction the equal protection
of the Laws.” Very much a separate entity, Native
American tribes enjoy sovereign immunity in most cases.
2. The Indian Civil Rights Act (ICRA) of 1968.
3.

Talton. v. Mayes. 163 U.S. 376 (1896). In Talton, the

Supreme Court held that Native Nations are “distinct,
independent political communities” and found that tribal
governments and their courts were not subject to Fifth
Amendment limitations applicable to federal and state
governments because of their distinctiveness that
predates the Constitution. As it is held about States,
Native American tribes shall not take land without just
Compensation.
3

STATEMENT OF THE CASE
Petitioner requests this court to exercise its power and
discretion under Rule 11 of its rules to grant a Writ of
Certiorari after judgment to the United States Court of
appeals for the Fourth Circuit, which has entered
judgment on an appeal of this case. This court, and all
public offices, is defined under Federal Rules of Civil
Procedure (FRCP) Rule 4(j) as a FOREIGN STATE.
FACTUAL BACKGROUND
Plaintiff asks for help from the Supreme Court because
she could not find a remedy in state court or tribal court.
This case is unprecedented in that it is unconscionable
to change a person’s valid will. It goes against the very
basic notion of civility.
Even in death, one deserves justice...
4

It may be ironic that Petitioner minored in Native
American history during her
undergraduate studies and is a proponent of Native
American rights, and also proud of her mother s Catawba
heritage. This interest led her, a disabled Gulf War
veteran, to meet fellow veteran and former Vice Chief of
the Eastern Band of Cherokee Indians, Bill Ledford in
1997.
In 2007 Bill Ledford hired an attorney to create his
will. To abide by tribal and state laws, two witnesses
signed the sacred document. [During his lifetimes, Bill
Ledford gave each of his five children 10 acres of land.]
Sadly, Bill Ledford passed away on October 29, 2013.
His will was accepted as valid by Tribal Court and the
State of North Carolina.
Although April Ledford is not an enrolled member of
the Eastern Band of Cherokee Court, she was granted a
life estate in the home she shared with Bill Ledford.
5

According to tribal law, Bill Ledford’s children had
three years to contest the will, but did not do so. Instead,
they convinced llcouncil members to change their
father’s will, resulting in her becoming homeless.
Council used a code that addresses situations wherein
the decedent left no will.
Today, Plaintiff humbly asks for a jury trial in Federal
Court because she cannot sue the tribe in state courts and
she exhausted tribal remedies.
Also, Plaintiff asks this Honorable Court to review the
case which states that the Indian Civil Rights Act (ICRA)
may only be used in cases dealing with Habeas Corpus.
PROCEEDINGS BELOW
A. Tribal Court — Petitioner filed an appeal on June
23, 2017.
B The Court of Appeals
The Appeal was submitted on January 15, 2021.
6

REASONS FOR GRANTING THE WRIT
I. This Court Should Exercise Its Power to Grant
Review Before Judgment
For several reasons, the circumstances of this case make
it appropriate for granting Petitioner the writ of
certiorari.
First, this case offers issues of fundamental importance.
It concerns important constitutional and civil rights, and
the resolution of these issues will have effects that reach
out far beyond this case.
CONCLUSION
For the foregoing reasons, Petitioner respectfully
requests the Court to grant her petition for certiorari
before judgment.
The petition for writ of certiorari should be granted.
Respectfully submitted,

rv
April Lei
Date: June 25, 2021

Case No:
April Ledford vs. the Eastern Band of Cherokee
Indians
This is to certify that April Ledford has written her
petition within the allowed word count.

April L©
Date: June 25, 2021

